No.

IN THE
SUPREME COURT OF THE UNITED STATES

TYE LANFORD SARRAT

— PETITIONER

(Your Name)
VS.

UNITED STATES OF AMERICA — RESPONDENT(S)
MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
The petitioner asks leave to ﬁle the attached petition for a writ of certiorari
without prepayment of costs and to proceed in forma pauperis.
Please check the appropriate boxes:
䡺 Petitioner has previously been granted leave to proceed in forma pauperis in
✔
the following court(s):
United States District Court for the Western District of North Carolina. Fourth Circuit Court of Appeals.

䡺 Petitioner has not previously been granted leave to proceed in forma
pauperis in any other court.
䡺 Petitioner’s afﬁdavit or declaration in support of this motion is attached hereto.
䡺 Petitioner’s afﬁdavit or declaration is not attached because the court below
appointed counsel in the current proceeding, and:
䡺 The appointment was made under the following provision of law:
, or
䡺 a copy of the order of appointment is appended.

/s/ Joshua B. Carpenter
(Signature)

